TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Expansion of the Delinquent Return Refund
                     Hold Program Could Improve Filing
                  Compliance and Help Reduce the Tax Gap



                                           May 14, 2014

                              Reference Number: 2014-30-023




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 2 = Law Enforcement Tolerance



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


EXPANSION OF THE DELINQUENT                           below the threshold criteria (i.e., refunds were
RETURN REFUND HOLD PROGRAM                            not held for these cases). Analysis showed that
COULD IMPROVE FILING COMPLIANCE                       88 percent of delinquencies associated with the
AND HELP REDUCE THE TAX GAP                           held refunds were subsequently resolved,
                                                      compared with less than one percent of
                                                      delinquencies associated with cases for which
Highlights                                            refunds were not held, thus indicating the value
                                                      of this Program in improving filing compliance.
Final Report issued on May 14, 2014                   IRS management has considered expanding the
                                                      Program by lowering the dollar threshold but has
Highlights of Reference Number: 2014-30-023           not because of limited resources. However,
to the Internal Revenue Service Commissioners         taxpayers who become compliant with their prior
for the Small Business/Self-Employed and Wage         period filing requirements could remain
and Investment Divisions.                             compliant in future years and reduce the need
                                                      for additional enforcement resources in
IMPACT ON TAXPAYERS                                   subsequent filing seasons. TIGTA also
The IRS has the authority to delay issuing            identified other opportunities for expansion.
income tax refunds for up to six months while it      The IRS has not established performance
investigates return delinquencies from other tax      measures to evaluate the Program’s primary
years. Holding refunds encourages taxpayers to        goal of increasing taxpayer filing compliance.
take action and resolve their delinquent filing       As a result, management does not have
obligations earlier.                                  complete information about how well the
WHY TIGTA DID THE AUDIT                               Program is achieving its goal, or if it is an
                                                      effective tool for improving taxpayer filing
In Calendar Year 2012, the Delinquent Return          compliance over time.
Refund Hold Program collected nearly
$242 million, which was applied to balances due       WHAT TIGTA RECOMMENDED
on delinquent returns. This audit was initiated to    TIGTA recommended that the IRS: 1) consider
determine the effectiveness of the Program as a       opportunities to expand the use of the Program
tool to promote filing compliance.                    as resources become available and 2) develop
WHAT TIGTA FOUND                                      specific performance measures to compare
                                                      actual results with management’s goal to
For Calendar Years 2008 through 2012, the             improve filing compliance.
Program held an average of 156,422 refunds
per year. During the same period, the Program         In response to the report, IRS management
secured an average of 64,222 returns from             agreed with both recommendations. However,
taxpayers per year and coordinated with the           management did not commit to a specific
ASFR program to prepare and post an additional        corrective action plan to expand the Program
117,895 substitute returns per year.                  and agreed only to explore the development of
                                                      performance measures, with implementation
TIGTA reviewed two separate random samples            dependent on the availability of resources.
of 30 taxpayer cases each in which a refund was
held and the refund hold was either manually or       TIGTA continues to believe that expansion of
systemically released. Results showed                 this Program is important as it represents an
employees followed procedures when working            opportunity to increase both taxpayer filing
cases and when refund holds were released.            compliance and revenue at a lower cost than
                                                      traditional Collection programs. In addition, until
TIGTA compared delinquent return data for a           specific performance measures are
population of refund hold cases with a certain        implemented, management will not have
dollar amount above the threshold criteria to a       complete information about how well the
population of cases with a certain dollar amount      Program is achieving its goals.
                                                DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                May 14, 2014


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                           Michael E. McKenney
                                 Acting Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Expansion of the Delinquent Return Refund Hold
                                 Program Could Improve Filing Compliance and Help Reduce the Tax
                                 Gap (Audit # 201230018)

 This report presents the results of our review to determine the effectiveness of the Delinquent
 Return1 Refund Hold Program under the direction of the Compliance Services Collection
 Operation as a tool to promote filing compliance. This audit is included in our Fiscal Year 2014
 Annual Audit Plan and addresses the major management challenge of Tax Compliance
 Initiatives.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Bryce Kisler, Acting
 Assistant Inspector General for Audit (Compliance and Enforcement Operations).




 1
     See Appendix VI for a glossary of terms.
                      Expansion of the Delinquent Return Refund Hold Program Could
                         Improve Filing Compliance and Help Reduce the Tax Gap




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 6
          Refund Holds Promote Filing Compliance and
          Employees Are Properly Working Cases ..................................................... Page 6
          Management Has Not Expanded the Refund Hold Program
          Because of Limited Resources ...................................................................... Page 8
                    Recommendation 1:........................................................ Page 12

          Program Performance Measures Are Not Aligned
          With Program Goals ..................................................................................... Page 13
                    Recommendation 2:........................................................ Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 15
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
          Appendix IV – Outcome Measure ................................................................ Page 21
          Appendix V – Automated Substitute for Return Program ......................... Page 22
          Appendix VI – Glossary of Terms ................................................................ Page 23
          Appendix VII – Management’s Response to the Draft Report ..................... Page 27
        Expansion of the Delinquent Return Refund Hold Program Could
           Improve Filing Compliance and Help Reduce the Tax Gap




                        Abbreviations

AMS               Account Management Services
ASFR              Automated Substitute for Return
CP                Computer Paragraph
CSCO              Compliance Services Collection Operation
IDRS              Integrated Data Retrieval System
IRS               Internal Revenue Service
SB/SE             Small Business/Self-Employed
TIGTA             Treasury Inspector General for Tax Administration
W&I               Wage and Investment
                  Expansion of the Delinquent Return Refund Hold Program Could
                     Improve Filing Compliance and Help Reduce the Tax Gap




                                          Background

The Delinquent Return1 Refund Hold Program (Program) addresses taxpayer filing compliance
by delaying issuance of a taxpayer’s income tax refund for up to six months while the Internal
Revenue Service (IRS) investigates a return delinquency on another tax year. The refund can be
used to offset any balance due on a taxpayer’s delinquent return. If there is no balance due, or a
refund amount remains after an offset to the delinquent account, the refund is released to the
taxpayer. The Program helps to reduce the net Tax Gap by increasing revenue at a lower cost
and in a shorter time period than assigning a return delinquency to a revenue officer who
attempts to secure the delinqent return. Holding refunds encourages taxpayers to take action and
resolve their filing obligations earlier.
The IRS executes and administers the Program under the authority of Internal Revenue Code
Sections (§§) 6402(a) and (b)2 which state that the IRS may credit the amount of any
overpayment against any tax liability or estimated tax liability of the person who made the
overpayment. The period for holding the refund is six months, which begins on April 15 of the
current tax year or the date of filing, whichever is later. If the IRS does not secure a delinquent
tax return or resolve the delinquency during the six-month period, the refund is automatically
released to the taxpayer.
The Program is one of a number of refund hold programs that the IRS administers. The Program
is under the direction of the Compliance Services Collection Operation (CSCO) and is
consolidated at the IRS Austin, Texas, Campus. The CSCO is organizationally placed under the
Wage and Investment (W&I) Division’s Filing and Payment Compliance function.
Figure 1 shows that for Fiscal Years 2010 through 2012, almost all Program inventory was
worked by the CSCO, with a smaller amount worked by other IRS functions.3




1
  See Appendix VI for a glossary of terms.
2
  Internal Revenue Code §§ 6402(a) and (b) (2004).
3
  Other functions include the IRS W&I Division’s Compliance Services Examination Operation and the Small
Business/Self-Employed Division’s Compliance Services Examination Operation Collection Field function.
                                                                                                      Page 1
                    Expansion of the Delinquent Return Refund Hold Program Could
                       Improve Filing Compliance and Help Reduce the Tax Gap



                     Figure 1: Refund Hold Inventory Worked by Function
                              for Fiscal Years 2010 Through 2012




    Source: IRS-provided data from the Joint Operation Center Liaison Staff Phone Report and the Batch/Block
    Tracking System.

Program refund holds must meet certain criteria. IRS procedures state that individual income tax
refunds, Treasury offsets, and credit elects are to be held when a return is filed with the
following criteria:
         *********2********.
         The taxpayer account has one or more delinquent tax modules within the five tax years
          prior to the current tax year and for which the IRS has third-party information
          documents.4
         ********************************2**********************************
          *********************************2********************************
          **2***.
         The module contains any type of delinquent return investigation select code.5
When a refund return that meets Program criteria is filed, the taxpayer is notified by a
computer-generated (CP) refund hold notice,6 which provides the taxpayer with a 10-day
deadline for resolving the delinquency. This notification informs the taxpayer that the refund is
being held because there is a delinquent return. The notice informs the taxpayer how to respond



4
  Information documents include the Form W-2, Wage and Tax Statement, for wages earned; Form 1099-DIV,
Dividends and Distributions, for dividends earned; Form 1099-INT, Interest Income, for interest earned; and
Form 1099-MISC, Miscellaneous Income, for nonemployee compensation.
5
  Assignment of select codes (ranging from 01-99) to delinquent returns or nonfiler cases helps quantify their
priority for assignment.
6
  CP 63, Refund Hold Notification.
                                                                                                            Page 2
                  Expansion of the Delinquent Return Refund Hold Program Could
                     Improve Filing Compliance and Help Reduce the Tax Gap



and, in addition, if a return is not filed, that the IRS may determine the taxes on behalf of the
taxpayer.
If the taxpayer does not respond to the refund hold notice and the case meets certain criteria,7 it
will be moved to the Automated Substitute for Return (ASFR) program.8 The IRS uses the
ASFR program to file a return on behalf of an individual taxpayer. If a refund is held in the
Program, the case may be worked in conjunction with the ASFR program.
The ASFR program determines and assesses the tax liability by computing tax, penalties, and
interest based upon third-party information documents received by the IRS. The IRS sends the
taxpayer a copy of the IRS-prepared return (substitute for return) and gives the taxpayer an
opportunity to file a delinquent tax return if the substitute for return is inaccurate or incomplete.
For example, the substitute for return may not include all the taxpayer’s dependents or other
expenses that the IRS does not have information about.
If the taxpayer still does not respond, the IRS issues Letter 3219, Statutory Notice of Deficiency
(90-day letter).9 Once Letter 3219 is issued, the taxpayer’s refund is transferred to the tax year of
the proposed deficiency and held on the account until the 90-day letter is resolved. The taxpayer
may either respond to the 90-day letter or file a petition in Tax Court to contest the proposed
assessment. If the taxpayer does not satisfactorily respond and does not petition the Tax Court,
the proposed deficiency is assessed based on the substitute for return and the transferred refund
monies are used to pay the balance due. If the refund amount was more than the proposed
deficiency, an adjustment notice10 is sent to the taxpayer and the remaining amount is released to
the taxpayer.
CSCO tax examiners work Program cases when the taxpayer responds to the refund hold notice
or ASFR notice by telephone or mail correspondence. Working Program cases is their top
priority. Procedures are available for tax examiners to use when performing actions such as
handling incoming telephone calls, reviewing incoming tax returns, entering transaction codes,
and releasing the refund, if required. All actions taken are required to be documented in the
Account Management Services (AMS).
CSCO tax examiners may never get involved in a refund hold case if the taxpayer is
unresponsive to IRS notifications. Figure 2 shows an example case in which the taxpayer does
not respond to various notices. The process can be entirely systemic without CSCO employee
involvement.



7
  See Appendix V for more information on the Automated Substitute for Return program criteria.
8
  It is possible that the delinquent return has already been assigned and is being worked by the ASFR program when
the taxpayer’s refund is held by the Program.
9
  Internal Revenue Code § 6212 (2004).
10
   CP 21, Data Processing Adjustment Notice.
                                                                                                          Page 3
                  Expansion of the Delinquent Return Refund Hold Program Could
                     Improve Filing Compliance and Help Reduce the Tax Gap



                      Figure 2: Systemic Refund Hold Case (Example)




Source: Treasury Inspector General for Tax Administration (TIGTA) analysis from a site walkthrough of the
process.


                                                                                                        Page 4
               Expansion of the Delinquent Return Refund Hold Program Could
                  Improve Filing Compliance and Help Reduce the Tax Gap



This review was performed at the IRS campus in Austin, Texas; the Small Business/
Self-Employed (SB/SE) Division Headquarters in New Carrollton, Maryland; and the
W&I Division Headquarters in Atlanta, Georgia, during the period November 2012 through
September 2013. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                       Page 5
                Expansion of the Delinquent Return Refund Hold Program Could
                   Improve Filing Compliance and Help Reduce the Tax Gap




                                Results of Review

The Program provides the IRS with leverage to motivate taxpayers, who have not filed a return
for a previous year and who may have a tax liability, to file their return. The Program has
successfully generated revenue and helped secure unfiled returns. However, because of limited
resources, the IRS has been unable to expand its use, even though there could be tangible
benefits in doing so. Aligning the Program’s performance measures with Program goals could
help quantify Program benefits, keep managers focused on key goals, and provide the
information necessary to make strategic decisions regarding how to use the Program to address
delinquent filers and nonfilers.

Refund Holds Promote Filing Compliance and Employees Are
Properly Working Cases
In Calendar Year 2012, the Program collected nearly $242 million which was applied to balances
due on delinquent returns (offset transactions). Over the past five calendar years, refund offset
transactions have averaged approximately $232 million annually, which represents an average of
26 percent of the total refund dollars held. During Calendar Years 2011 and 2012, an additional
$1.2 million was received from taxpayers each year when delinquent returns were filed after
refunds were held. Figure 3 shows the Program results over the last five calendar years.




                                                                                          Page 6
                Expansion of the Delinquent Return Refund Hold Program Could
                   Improve Filing Compliance and Help Reduce the Tax Gap



                Figure 3: Delinquent Return Refund Hold Program Data
                         for Calendar Years 2008 Through 2012




Source: IRS Refund Hold Management Information Report data. *CY = Calendar Year.

The overall goal of the Program is to increase taxpayer filing compliance. For Calendar
Years 2008 through 2012, the Program held an average of 156,422 refunds per year. The IRS
reported that, during the same time period, the Program also accomplished the following:
       -   Secured an average of 64,222 delinquent returns from taxpayers per year.
       -   Coordinated with the ASFR program to prepare and post an average of 117,895
           substitute returns per year.
There are also indications that the Program is working cases more quickly, thereby minimizing
the interest paid on refunds held longer than 45 days. Specifically, interest payments to
taxpayers on refunds held by the Program steadily declined from $7,485,784 in Calendar
Year 2008 to $3,883,147 in Calendar Year 2012 (a 48 percent drop over five years).

Sample Program cases showed employees properly followed procedures when
working and releasing refund holds
CSCO tax examiners in the Austin Campus are cross-trained to work both telephones and
correspondence to answer taxpayer questions or concerns related to Program cases. In addition
to Program cases, tax examiners also work other types of cases such as delinquent return
investigations and balance due accounts. However, refund hold cases are their top priority.


                                                                                        Page 7
                  Expansion of the Delinquent Return Refund Hold Program Could
                     Improve Filing Compliance and Help Reduce the Tax Gap



When taxpayers respond to refund hold notices, tax examiners perform a variety of actions. Tax
examiners are required to:
        Verify the refund hold freeze is on the taxpayer’s account.
        Verify the delinquent return status on the taxpayer’s submitted return and whether any
         other delinquent returns remain outstanding.
        Review the submitted return to verify Social Security Numbers, address information,
         telephone numbers, signatures, income, and schedules to determine if they appear to be
         complete.
        Enter transaction codes on the taxpayer’s account including those to manually release the
         refund when appropriate and satisfying transaction codes to indicate that the delinquent
         returns have been resolved.
        Input comments in the AMS to document all actions taken on the taxpayer’s account.
Our review of a random sample of 30 cases in which taxpayers had a refund held through the
Program and a subsequent manual refund hold release during the period April 1, 2011, through
March 31, 2012, identified no errors. CSCO tax examiners who worked these cases
appropriately verified refund holds, researched delinquent returns on taxpayer accounts, and
ensured that all related delinquent returns had been resolved before releasing the refund. In
addition, employees properly documented the AMS history on case actions taken.
Refunds can also be released systemically by Master File programming. We also reviewed a
random sample of 30 Program cases in which refunds were held and systemically released during
the same time period and identified no errors requiring corrective action.

Management Has Not Expanded the Refund Hold Program Because of
Limited Resources
Program results show that when taxpayers’ refunds are held, they are significantly more likely to
resolve return delinquencies on previous tax years than taxpayers whose refunds are not held.
We evaluated the impact the Program has on taxpayer filing compliance by comparing
delinquent return data11 on a population of refund hold cases with dollar amounts up to $500
above the Program threshold criteria to a population of cases with dollar amounts up to $500
below the criteria (refunds issued).12 Figure 4 shows the number of delinquent tax modules still



11
  Delinquent return data results are as of March 28, 2013.
12
  These populations are based on when the refund was held or issued and covered the time period from
April 1, 2011, through March 31, 2012. We used calendar dates here; however, this population was identified by
using weekly processing cycle dates. See Appendix I for details.
                                                                                                         Page 8
                  Expansion of the Delinquent Return Refund Hold Program Could
                     Improve Filing Compliance and Help Reduce the Tax Gap



outstanding after refunds were held compared with delinquencies still outstanding when refunds
were not held.13
                            Figure 4: Impact of Holding Refunds on
                                  Outstanding Delinquencies




       Source: TIGTA analysis of refund populations for the period April 1, 2011, through March 31, 2012.

This comparison shows that the Program significantly increased taxpayer filing compliance by
successfully prompting taxpayers to resolve return delinquencies from previous tax years.
Specifically, 19,432 (88 percent) of 21,962 modules that were in delinquent status at the time the
refund was held were no longer in delinquent status. Conversely, when the refunds were not
held, just three (0.01 percent) of the 20,400 tax modules that were in delinquent status at the time
the refund was issued were no longer delinquent.
In a 2004 report,14 TIGTA recommended that the IRS reevaluate the administrative dollar
tolerance for holding refunds to determine if it can be reset at a lower level. Upon evaluation,
the IRS proposed lowering the Program threshold from ********2*********************
*******2******. According to the proposal, a tolerance change from ***2******** would


13
  As of the time of our analysis, March 28, 2013.
14
  TIGTA, Ref. No. 2004-30-127, The Return Delinquency Notice Program Could Be Used More Effectively to
Promote Filing Compliance and Reduce the Tax Gap (Aug. 2004).
                                                                                                        Page 9
                  Expansion of the Delinquent Return Refund Hold Program Could
                     Improve Filing Compliance and Help Reduce the Tax Gap



have resulted in approximately 50,000 additional refund returns held during Fiscal Year 2009,
adding potential revenue of $21,000,000.
However, data from the evaluation also projected tax return volumes received by the
W&I Division’s Program and ASFR campuses would increase by 13,600 based on Fiscal
Year 2009 return figures. In addition, approximately 10.68 full-time equivalents15 would be
required for the additional work created by the Program change. In light of these increases, the
IRS decided it would be unable to handle the additional impact on resources at that time due to
resource reductions in the W&I Division’s CSCO and the SB/SE Division’s ASFR programs.
In the current budget environment, lowering the threshold and expanding the Program represents
an opportunity to increase both taxpayer filing compliance and revenue dollars at a lower cost
than traditional Collection programs, such as assigning cases to revenue officers in the field.
Further, such efforts could have a direct positive impact on lowering the Tax Gap. In addition, if
the same trend of taxpayers becoming compliant with their prior period filing requirements
continues and if they remain compliant in future years, it may reduce the need for the IRS to
devote additional enforcement resources to secure delinquent returns in subsequent filing
seasons.

Other opportunities for Program expansion may exist
There are some circumstances in which refunds that otherwise meet refund hold criteria are not
held because IRS management has determined such circumstances warrant exclusion from the
Program. Management informed us that these exceptions to the Program have been part of IRS
policy since Calendar Year 1995, but could not provide the basis for these decisions because
there were insufficient historical data. For example, refunds may not be held when:
        The taxpayer is experiencing an economic hardship and supporting documentation has
         been provided by the Taxpayer Advocate Service with an Operations Assistance
         Request.16
        The taxpayer is in a declared disaster area and has self-identified as an affected taxpayer.
        The taxpayer filed jointly with a spouse and there are no balance due conditions related to
         the taxpayer (even if there are balance due conditions with the spouse).
        The taxpayer is deceased.



15
   Full-time equivalents are a measure of labor hours in which one full-time equivalent is equal to eight hours
multiplied by the number of compensable days in a particular fiscal year.
16
   Form 12412, Operations Assistance Request, is a form used by the Taxpayer Advocate Service to request
assistance from the IRS to complete an action on a case when the Taxpayer Advocate Service lacks the authority to
do so, e.g., a refund hold release.
                                                                                                         Page 10
                   Expansion of the Delinquent Return Refund Hold Program Could
                      Improve Filing Compliance and Help Reduce the Tax Gap



        The taxpayer is in a combat zone and there is no exit date present on the Individual
         Master File On-Line system.
        The taxpayer is in bankruptcy.
        The taxpayer is under criminal investigation.
**********************************2*******************************************
**********************************2*******************************************
**********************************2*******************************************
**********************************2*******************************************
*****************2*************************.
We reviewed a random sample of 60 taxpayer cases in which refunds were issued in the amount
of *****2***** and were not held through the Program even though the taxpayers had other
modules in delinquent status.17 From the 60 sampled cases, we identified 13 cases that appeared
to meet Program criteria, but the refunds were not held due to IRS policy which exempted
certain circumstances from the Program.18 Figure 5 shows the exceptions involved with these
13 cases.
                    Figure 5: Refunds Not Held for Procedural Exception

                                  Reason                                               Number of Cases
 ********************1*****************                                                           **1**
 *********1***************                                                                        **1**
 *******1*******                                                                                  **1**
 ********************1***************                                                             **1**
 ******************1***********                                                                   **1**
 ******1*****                                                                                     **1**
 **************1***********                                                                       **1**
 *********1***********                                                                            **1**
 *******************1*********************                                                        **1**
Source: TIGTA case review for the period April 1, 2011, through March 31, 2012.




17
   Data on delinquent, unfiled tax returns were for the period April 1, 2011, through March 31, 2012. We used
calendar dates here; however, this population was identified by using weekly processing cycle dates.
See Appendix I for details.
18
   The remaining cases were properly released for some other reason, such as timing issues or estimated liabilities
below a certain dollar threshold.
                                                                                                            Page 11
                Expansion of the Delinquent Return Refund Hold Program Could
                   Improve Filing Compliance and Help Reduce the Tax Gap



Most of the reasons listed in the case files were procedural exceptions to the Program and the
refunds were properly released in compliance with IRS procedures. However, some of the
exceptions may provide an opportunity for Program expansion. *********2***********
*******************************.19********2************************************
*****************************************2************************************
*****************************************2************************************
*****************************************2************************************
*****************************************2************************************
***********2********
************************************2*****************************************
************************************2*****************************************
************************************2***********************20 **********
****************2*****.
A second exception that we determined could warrant Program expansion involves cases in
which the taxpayer is under criminal investigation. Specifically, when a taxpayer’s account is in
criminal investigation status, refunds are not held by the Program. However, Criminal
Investigation management stated that there could be instances in which agents assigned to work
cases would want the Program to hold the refund and not release it to the taxpayer. Currently,
Criminal Investigation agents do not receive notification that refunds meet refund hold criteria or
are being released for taxpayers under criminal investigation.

Recommendation
Recommendation 1: The Director, Enterprise Collection Strategy, SB/SE Division, and the
Director, Filing and Payment Compliance, W&I Division, should consider opportunities to
expand the use of the Program as resources become available, including lowering the dollar
threshold and reevaluating Program exception criteria. Analysis should consider the return on
investment, the impact on the Tax Gap, as well as the impact that subsequent period taxpayer
filing compliance would have on enforcement resources.
       Management’s Response: IRS management agreed with this recommendation.
       Specifically, if resources become available, management will consider lowering the
       dollar threshold and reevaluating certain program exception criteria, including refunds
       based on****************2*********, refunds in cases in which the taxpayer is under
       criminal investigation, and refunds when the taxpayer is deceased or in bankruptcy.
       However, in the current budget environment, they do not anticipate that the resources


19
   *******************************************2************************************************
***********2**************.
20
   ***************************************************2***************************************.
                                                                                           Page 12
                   Expansion of the Delinquent Return Refund Hold Program Could
                      Improve Filing Compliance and Help Reduce the Tax Gap



        needed to expand use of the Program will be available in the foreseeable future.
        Management did not commit to a specific corrective action plan with milestone dates.
        Office of Audit Comment: TIGTA continues to believe that lowering the dollar
        threshold and reevaluating Program exception criteria is important. While we
        acknowledge that the IRS budget is limited, expansion of the Program represents an
        opportunity to increase both taxpayer filing compliance and revenue at a lower cost than
        traditional Collection programs. In addition, taxpayers who become compliant with their
        prior period filing requirements could remain compliant in future years and, therefore,
        reduce the need for additional enforcement resources in subsequent filing seasons.

Program Performance Measures Are Not Aligned With Program Goals
IRS management uses the refund hold effectiveness calculation to measure the effectiveness or
performance of the Program. Refund hold effectiveness, measured in dollars, is equal to the
gross tax collected on a refund hold case, less the interest paid to the taxpayer on the refund held
if held longer than 45 days. Refund hold effectiveness annual totals are compared to each other
from year to year. Management also tracks numerous other data about the Program such as the
number of refunds held, number of delinquent returns secured, interest paid on refunds, amount
of offset transactions, and the amount of money collected through the Program. All data are
reported monthly on the Refund Hold Management Inventory Report. Management stated that
they use the report to obtain Program results and to help predict inventory levels based on prior
year volumes.
The Government Performance and Results Act of 199321 establishes that Federal Government
agencies are expected to identify performance measures for program activities and compare
results of activities with measures identified. Performance measures, as well as methods of
performance assessment, provide management with information on how resources should be
allocated to ensure program effectiveness. They help support development and justification of
budget proposals by indicating how taxpayers and others benefit. Determining the best method
of performance assessment, including the establishment of performance measures, helps
managers to focus on the key goals of the program. In addition, they help provide management
with the information necessary to make strategic decisions regarding the best ways to address
delinquent filers and nonfilers.
The overall goal of the Program is to increase taxpayer filing compliance. However, the
Program does not have a specific measure for this goal. In addition, there have been no special
projects, research reports, or studies in the SB/SE Division’s Enterprise Collection Strategy
operation or in the W&I Division’s Filing and Payment Compliance function to measure the


21
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
39 U.S.C.).
                                                                                                             Page 13
               Expansion of the Delinquent Return Refund Hold Program Could
                  Improve Filing Compliance and Help Reduce the Tax Gap



impact that refund holds may have on taxpayer filing compliance in subsequent periods.
Management informed us that they rely on the refund hold effectiveness measure (the tax dollars
collected on a refund hold case); however, refund hold effectiveness is only a component of the
overall goal of improving taxpayer filing compliance. As such, management does not have
complete information needed to assess progress and the effectiveness of achieving its primary
goal.

Recommendation
Recommendation 2: The Director, Enterprise Collection Strategy, SB/SE Division, and the
Director, Filing and Payment Compliance, W&I Division, should develop specific performance
measures in the Program that compare actual results with management’s goal of improving filing
compliance.
       Management’s Response: IRS management agreed with this recommendation.
       Specifically, management will initiate a project to explore the development of
       performance measures. However, they further stated that implementation of any specific
       performance measures would be dependent on the availability of resources needed to
       support the measures and the usefulness of the measures as a predictive tool in
       determining the effectiveness of the Program.
       Office of Audit Comment: TIGTA continues to believe that development, as well as
       implementation of specific performance measures for the Program, is important. Until
       measures are implemented, management will not have complete information about how
       well the Program is achieving its goal, or if it is an effective tool for improving taxpayer
       filing compliance over time.




                                                                                            Page 14
                     Expansion of the Delinquent Return Refund Hold Program Could
                        Improve Filing Compliance and Help Reduce the Tax Gap



                                                                                    Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the effectiveness of the Delinquent Return1
Refund Hold Program under the direction of the CSCO as a tool to promote filing compliance.
To accomplish our objective, we:
I.         Identified CSCO’s policies, procedures, and performance measures for the Program.
           A. Researched and reviewed applicable Internal Revenue Manual sections, internal
              guidance, management directives, and prior audit reports.
           B. Interviewed IRS headquarters and CSCO management and obtained further
              information and understanding of refund hold policies and procedures. We visited
              the Austin Campus, which is CSCO’s consolidated operation for the Program. We
              interviewed the CSCO Program Coordinator, operations management, headquarters
              staff employees, and Program group managers.
II.        Determined how management measures the performance and/or effectiveness of the
           Program and evaluated the measures for reasonableness.
           A. Interviewed IRS headquarters and CSCO management and determined how the
              Program is currently measured for effectiveness and/or how they believe it should be
              measured.
           B. Analyzed Program data for trends that could help measure Program effectiveness,
              such as:
               1. How long refunds are held until ultimately released.
               2. The amount of interest paid on Program cases for refunds held more than 45 days.
               3. The amount of money collected from refunds held.
               4. The number of delinquent returns secured and/or resolved prior to the refund hold
                  release.
           C. Obtained from the Data Center Warehouse a population of taxpayers with refunds
              between *******2********(this is below the threshold of selection) and between
              processing cycles 201113 and 201215.



1
    See Appendix VI for a glossary of terms.
                                                                                           Page 15
               Expansion of the Delinquent Return Refund Hold Program Could
                  Improve Filing Compliance and Help Reduce the Tax Gap



          1. Reviewed the population to determine if the taxpayer had unfiled returns in
             delinquency status (02 or 03) at the time of the refund, and compared them to the
             population of refund holds between **********2********from the population
             identified earlier in the audit.
          2. Identified trends and determined the potential impact on filing compliance on
             cases in which the refunds were between******2***********.
III.   Performed case reviews to determine if CSCO tax examiners are following proper
       procedures to process Program cases.
       A. Obtained from the Data Center Warehouse an extract of released Program cases
          (systemic and manual) between processing cycles 201113 and 201215. We validated
          the data extract by selecting 25 taxpayers and comparing the data to Integrated Data
          Retrieval System (IDRS) data to ensure accuracy. We determined that the data were
          sufficiently reliable for the purposes of this report.
       B. Selected for review a random sample of 75 manually released Program cases from the
          population of 19,476 taxpayers with manually released refund holds in Step III.A.
          Because no exceptions were found, we stopped after reviewing the first 30 cases.
          1. Reviewed manually released cases to determine if tax examiners were following
             all proper procedures. We:

              a. Reviewed AMS histories to see if case actions taken and reasons for releasing
                 the refunds were being documented.
              b. Verified on the IDRS the closing transaction codes and dates on the five prior
                 tax years (from the refund hold return) to ensure that all associated delinquent
                 returns were resolved prior to the refund release.
              c. Verified on the IDRS the refund hold release date to ensure that it was timely
                 released after delinquent returns were resolved.
       C. Selected for review a random sample of 75 systemically released Program cases from
          the population of 35,515 taxpayers with systemically released refund holds in
          Step III.A. Because no irregularities were identified, we stopped after reviewing the
          first 30 cases.
          1. Reviewed systemically released cases to determine if any irregularities exist.
              a. Verified on the IDRS the dates from refund hold freeze to refund hold release
                 for timeliness.
              b. For cases in which the refund hold was released prior to the expiration of the
                 statute, verified on the IDRS the closing transaction codes and dates on the

                                                                                         Page 16
              Expansion of the Delinquent Return Refund Hold Program Could
                 Improve Filing Compliance and Help Reduce the Tax Gap



                 five prior tax years (from the refund hold return) to ensure that all associated
                 delinquent returns were resolved prior to the refund hold release.
             c. For cases where the refund hold was released due to the expiration of the
                statute, verified on the IDRS if the associated delinquent returns were
                resolved.
      D. Determined if the Program is properly holding cases that meet Program criteria.
         1. Obtained from the Data Center Warehouse an extract of cases in which refunds
            were issued between processing cycles 201113 and 201215 for *****2*****
            when there were delinquent returns present on the accounts five years prior to the
            refund return.
         2. Validated the data extract by selecting 15 taxpayers and comparing data to IDRS
            data to ensure accuracy. We determined that the data were sufficiently reliable
            for the purposes of this report.
         3. Selected a random sample of 60 taxpayer cases from the population of
            17,303 taxpayers extracted in Step III.D.1. We attempted to eliminate all cases in
            which there was a refund hold on the module by removing the population
            identified in Step III.A. from this population. However, in reviewing our sampled
            cases, we needed to replace 15 cases (therefore, a total of 75 cases were selected)
            due to the refund being held by the Program.
         4. Reviewed the sampled cases on the IDRS to determine if one or more of the
            associated delinquent returns showed a potential liability of ***2***** (no
            Federal Employee/Retirement Delinquency Investigation cases were included in
            our sample) on the Information Reporting Processing Transcript Request. If the
            delinquent module showed a potential liability of *****2*****, the case was
            reviewed to determine why the refund was not held. Any cases in which we were
            unable to determine the reason why the refund was not held were sent to the IRS
            for explanation. During this review, we identified potential areas for the IRS to
            expand the use of the Program.
IV.   Discussed exception cases with management and determined the causes.
V.    The contract statistician reviewed and agreed with our sampling methodology and
      sampling plans.




                                                                                          Page 17
               Expansion of the Delinquent Return Refund Hold Program Could
                  Improve Filing Compliance and Help Reduce the Tax Gap



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Program policies and procedures, ASFR
procedures related to the Program, the Refund Hold Management Inventory Report which tracks
program data, and the AMS and IDRS programming controls. We evaluated these controls by
observing how CSCO employees receive and work Program cases, interviewing management,
and reviewing samples of Program cases.




                                                                                      Page 18
               Expansion of the Delinquent Return Refund Hold Program Could
                  Improve Filing Compliance and Help Reduce the Tax Gap



                                                                            Appendix II

                Major Contributors to This Report

Nancy Nakamura, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Tim Greiner, Acting Director
Phyllis Heald London, Audit Manager
Julian O’Neal, Lead Auditor
Charles Nall, Senior Auditor
Rebecca Arendosh, Auditor
Nicole DeBernardi, Auditor




                                                                                    Page 19
               Expansion of the Delinquent Return Refund Hold Program Could
                  Improve Filing Compliance and Help Reduce the Tax Gap



                                                                            Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Enterprise Collection Strategy, Small Business/Self-Employed Division SE:S:CS
Director, Field Collection, Small Business/Self-Employed Division SE:S:FC
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                     Page 20
                   Expansion of the Delinquent Return Refund Hold Program Could
                      Improve Filing Compliance and Help Reduce the Tax Gap



                                                                                                Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Increased Revenue – Potential; $105,000,0001 (see page 8).

Methodology Used to Measure the Reported Benefit:
In Calendar Year2 2009, the IRS created a proposal, Proposed Refund Hold Tolerance Change
for Calendar Year 2010, to ****************2**********************
***************************2****************************for the Program would be
instrumental in reducing the Tax Gap and bringing additional taxpayers into filing compliance.
According to the proposal, *************2******************* shows that approximately
50,000 additional refund returns would have been included in the Program for Fiscal Year 2009,
adding potential revenue of $21 million. In addition, new refunds are held each year. The
collection potential from the 50,000 additional refund returns for one year was multiplied by five
to obtain a five-year forecast3 of $105 million. This forecast does not include any increased
revenue that might occur if the IRS reevaluates Program criteria and reduces the number of
exceptions to the Program, allowing more refunds to be held.




1
  The potential revenue would be offset by the Program’s additional full-time-equivalent resources required to work
the cases as identified in the study conducted by the IRS.
2
  See Appendix VI for a glossary of terms.
3
  The five-year forecast is based on multiplying the base year by five and assumes that economic conditions and tax
laws do not change, as well as other considerations such as the number of refund returns submitted, the number of
refunds held, the additional potential revenue, etc., over the next five-year period.
                                                                                                          Page 21
                 Expansion of the Delinquent Return Refund Hold Program Could
                    Improve Filing Compliance and Help Reduce the Tax Gap



                                                                                      Appendix V

           Automated Substitute for Return Program

Internal Revenue Code Section 6020(b) provides the IRS with the authority to prepare a tax
return for a nonfiling taxpayer if the taxpayer appears to be liable for the return, the person
required to file the return does not file it, and attempts to secure the return fail. For nonfiled
individual income tax returns, the IRS uses this authority in its ASFR program.
The ASFR program determines and assesses the correct tax liability by:
      Securing valid income tax returns from taxpayers, or
      Computing tax, penalties, and interest, based upon Information Reporting Program
       information submitted by payers, combined with other internally available information.
A module meets ASFR program criteria if all the following conditions exist:
      It is not older than five years prior to the current processing year.
      It has Information Returns Processing information with a proposed tax liability of
       ******2********.
      Information Returns Processing information exists on the IDRS under the Information
       Returns Processing Transcript Request for the module.
      It has no associated balance due modules in the Collection Field function, Automated
       Collection System, or the Queue; and no associated modules that are Currently Not
       Collectable or on Installment Agreements.
      The total number of Information Reporting Program documents for the module is 60 or
       less.
      There are no bankruptcy, litigation pending, account selected for audit, criminal
       investigation, or refund scheme freezes on the module or account.
      The select code is not a Criminal Investigation or IRS employee selection code.
In the W&I Division, the CSCO administers the ASFR program. In the SB/SE Division, the
ASFR is a separate operation. The ASFR program is worked in two W&I Division Compliance
campuses—Austin, Texas, and Fresno, California, and in one SB/SE Division campus—
Brookhaven, New York.




                                                                                               Page 22
                Expansion of the Delinquent Return Refund Hold Program Could
                   Improve Filing Compliance and Help Reduce the Tax Gap



                                                                          Appendix VI

                              Glossary of Terms

                 Term                                     Definition
Account Management Services           A web-based resource that enables Appeals
                                      employees to interface with various other IRS
                                      systems. It was formerly known as “Desktop
                                      Integration” or “DI.” The AMS brings various
                                      IRS systems together into one common view. The
                                      AMS emphasizes the sharing of key business data
                                      by integrating access to many tools into a common
                                      interface.
Assessment                            A determination by the IRS that an amount of tax
                                      (including penalty, interest, etc., if applicable) is
                                      owed by the taxpayer.
Balance Due Module                    Occurs when the taxpayer has an outstanding
                                      (unpaid) liability for taxes, penalties, and/or
                                      interest.
Business Master File                  The IRS database that consists of Federal
                                      tax-related transactions and accounts for
                                      businesses. These include employment taxes,
                                      income taxes on businesses, and excise taxes.
Calendar Year                         The 12-consecutive-month period ending on
                                      December 31.
Campus                                The data processing arm of the IRS. The
                                      campuses process paper and electronic
                                      submissions, correct errors, and forward data to
                                      the Computing Centers for analysis and posting to
                                      taxpayer accounts.




                                                                                    Page 23
                Expansion of the Delinquent Return Refund Hold Program Could
                   Improve Filing Compliance and Help Reduce the Tax Gap



Computer Paragraph                        Computer-generated notices and letters of inquiry
                                          that are mailed to taxpayers in connection with tax
                                          returns for the Business Master File and Individual
                                          Master File. CP numbers are located in the upper
                                          right corner of the notices and letters.
Credit Elects                             A taxpayer may elect to have all or a portion of an
                                          overpayment credited to the next year’s estimated
                                          tax.
Data Center Warehouse                     An online database maintained by TIGTA. The
                                          Data Center Warehouse pulls data from IRS
                                          system resources, such as IRS Collection files and
                                          IRS Examination files, for TIGTA access.
Delinquent Return                         A tax return that a taxpayer does not file with the
                                          IRS by the due date (including extensions) for any
                                          year in which a filing requirement exists.
Federal Employee/Retirement Delinquency   Program that promotes Federal tax compliance
Investigation                             among current and retired Federal employees.
                                          Federal Employee/Retirement Delinquency
                                          Investigation taxpayers are identified by matching
                                          delinquent taxpayer records against personnel
                                          records maintained by the U.S. Office of Personnel
                                          Management, the Department of Defense, and the
                                          U.S. Postal Service.
Fiscal Year                               A 12-consecutive-month period ending on the last
                                          day of any month. The Federal Government’s
                                          fiscal year begins on October 1 and ends on
                                          September 30.
Individual Master File                    The IRS database that maintains transactions or
                                          records of individual tax accounts.
Information Reporting Processing          A screen displayed on the IDRS that shows all of
Transcript Request                        the taxpayer’s Forms W-2, Wage and Tax
                                          Statement, Forms 1099, U.S. Information Return,
                                          series of returns, and other tax information
                                          documents for a specific year.




                                                                                      Page 24
                Expansion of the Delinquent Return Refund Hold Program Could
                   Improve Filing Compliance and Help Reduce the Tax Gap



Integrated Data Retrieval System        An IRS computer system capable of retrieving or
                                        updating stored information. It works in
                                        conjunction with a taxpayer’s account records.
Master File                             The IRS database that stores various types of
                                        taxpayer account information. This database
                                        contains individual, business, and employee plans
                                        and exempt organizations data.
Module/Tax Module                       Part of a taxpayer’s account that reflects tax data
                                        for one tax class, e.g., individual or business, and
                                        one tax period. For example, a taxpayer has filed
                                        12 Forms 941, Employer’s QUARTERLY Federal
                                        Tax Return, and three Forms 940, Employer’s
                                        Annual Federal Unemployment (FUTA) Tax
                                        Return, within a three-year period. The taxpayer
                                        has only one account on the Master File, but
                                        15 modules.
Nonfilers                               Individual and business taxpayers who have been
                                        identified as liable to file a tax return but have not
                                        filed a tax return by the return due date or
                                        extended due date.
Processing Cycle                        The week within the calendar year that a return,
                                        document, or transaction is processed by the IRS.
Queue                                   An automated holding file for unassigned
                                        inventory of delinquent cases for which the
                                        Collection function does not have enough
                                        resources to immediately assign for contact.
Refund Return                           A tax return in which the taxpayer has overpaid
                                        income taxes and is due a refund from the IRS.
Small Business/Self-Employed Division   The IRS organization that services self-employed
                                        taxpayers and small businesses by educating and
                                        informing them of their tax obligations,
                                        developing educational products and services, and
                                        helping them understand and comply with
                                        applicable tax laws.




                                                                                      Page 25
               Expansion of the Delinquent Return Refund Hold Program Could
                  Improve Filing Compliance and Help Reduce the Tax Gap



Tax Examiner                         Employees in field offices who conduct
                                     examinations through correspondence. Among
                                     other duties, a tax examiner processes tax returns,
                                     establishes and edits tax account records, and
                                     determines proper tax liabilities.
Tax Gap                              The Tax Gap is the estimated difference between
                                     the amount of tax that taxpayers should pay and
                                     the amount that is paid voluntarily and on time.
Taxpayer Advocate Service            An independent organization within the IRS
                                     whose employees assist taxpayers who are
                                     experiencing economic harm, who are seeking
                                     help in resolving tax problems that have not been
                                     resolved through normal channels, or who believe
                                     that an IRS system or procedure is not working as
                                     it should.
Treasury Offsets                     Tax refund applied to other Federal debts
                                     including tax and nontax debts, such as unpaid
                                     student loans and child support, as well as State
                                     tax debts.




                                                                                 Page 26
                   Expansion of the Delinquent Return Refund Hold Program Could
                      Improve Filing Compliance and Help Reduce the Tax Gap




                                                                                            Appendix VII

        Management’s Response to the Draft Report
                                        DEPARTMENT OF THE TREASURY
                                         INTERNAL REVENUE SERVICE
                                           WASHINGTON, D.C. 20224

              COMMISSIONER
SMALL BUSINESS/SELF-EMPLOYED DIVISION

                                                  April 4, 2014


MEMORANDUM FOR MICHAEL E. MCKENNEY
               ACTING DEPUTY INSPECTOR GENERAL FOR AUDIT

FROM:                   Karen Schiller /s/ Karen Schiller
                        Commissioner, S all Business/Self-Employed

SUBJECT:                 Draft Audit Report - Expansion of the Delinquent Return Refund Hold Program Could
                         Improve Filing Compliance and Help Reduce the Tax Gap (Audit# 201230018)

Thank you for the opportunity to review your draft report titled Expansion of the Delinquent Return Refund Hold
Program Could Improve Filing Compliance and Help Reduce the Tax Gap. We agree with the findings and
appreciate your acknowledgement that our employees are following proper procedures when they work cases in
the field and when they release refund holds.

The Delinquent Return Refund Hold Program is one of a number of refund hold programs that the IRS
administers. The program addresses taxpayer compliance by delaying issuance of a taxpayer's income tax refund
for up to six months while we investigate a return delinquency for another tax year. The program increases filing
compliance at a lower cost and in a shorter timeframe than assigning a Revenue Officer to attempt to secure the
delinquent return. Holding refunds also encourages taxpayers to take action and resolve their filing obligations
sooner. The program has enabled IRS to successfully secure unfiled returns and tax payments associated with the
liabilities reported on those returns.

Due to the Program's effectiveness in resolving return delinquencies and increasing tax payments, you have
recommended that we consider opportunities to expand the Delinquent Return Refund Hold Program and
suggested several opportunities we should consider. For example, you suggested that a ********2*****
*************2*************** would potentially increase revenue by $21.million a year. This translates into
a monetary benefit of $105 million for a five-year period.

As you noted in your report, implementation of a lower dollar threshold or a change in the program exception
criteria will require additional resources. When those resources become available, we will consider lowering the
dollar threshold and reevaluating certain program exception criteria. However, with no certainty as to when those




                                                                                                        Page 27
Expansion of the Delinquent Return Refund Hold Program Could
   Improve Filing Compliance and Help Reduce the Tax Gap




                                                       Page 28
                   Expansion of the Delinquent Return Refund Hold Program Could
                      Improve Filing Compliance and Help Reduce the Tax Gap



                                                                                                        Attachment

RECOMMENDATION 1:
The Director, Enterprise Collection Strategy, SB/SE Division, and the Director, Filing and Payment Compliance,
W&I Division, should consider opportunities to expand the use of the Program as resources become available,
including lowering the dollar threshold and reevaluating Program exception criteria. Analysis should consider the
return on investment, the impact on the Tax Gap, as well as the impact that subsequent period taxpayer filing
compliance would have on enforcement resources.

CORRECTIVE ACTION:
As you noted, implementation of a lower dollar threshold or a change in the program exception criteria requires
additional resources. If these resources become available, we will consider lowering the dollar threshold and
reevaluating certain program exception criteria, including refunds based on ****2*******, refunds in cases in
which the taxpayer is under criminal investigation, and refunds when the taxpayer is deceased or in bankruptcy.
However, in the current budget environment, we are not anticipating that the resources needed to expand use of the
Delinquent Return Refund Hold Program will be available in the foreseeable future.

IMPLEMENTATION DATE:
N/A

RESPONSIBLE OFFICIAL:
N/A

CORRECTIVE ACTION MONITORING PLAN:
N/A

RECOMMENDATION 2:
The Director, Enterprise Collection Strategy, SB/SE Division, and the Director, Filing and Payment Compliance,
W&I Division, should develop specific performance measures in the Program that compare actual results with
management's goal of improving filing compliance.

CORRECTIVE ACTION:
We agree that Delinquent Return Refund Hold Program would likely benefit from specific performance measures.
We therefore will initiate a project to explore the development of performance measures for the program. However,
implementation of any specific performance measure will be dependent on the availability of resources needed to
support the performance measures, and the usefulness of the measures as a predictive tool in determining the
effectiveness of the program.




                                                                                                          Page 29
Expansion of the Delinquent Return Refund Hold Program Could
   Improve Filing Compliance and Help Reduce the Tax Gap




                                                       Page 30
